TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Improving the Toll-Free Telephone
                          Agreement Would Better Assure
                           Tax-Exempt Customer Needs
                                    Will Be Met



                                      September 18, 2007

                              Reference Number: 2007-10-184




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 18, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improving the Toll-Free Telephone Agreement
                             Would Better Assure Tax-Exempt Customer Needs Will Be Met
                             (Audit # 200710029)

 This report presents the results of our review of the Tax Exempt and Government Entities
 (TE/GE) Division’s transfer of its toll-free telephone operation to the Wage and Investment
 (W&I) Division. The overall objective of this audit was to determine whether processes will
 ensure TE/GE Division customers continue to receive timely and accurate information through
 the toll-free telephone call site operated by the W&I Division. This audit was conducted as part
 of the Treasury Inspector General for Tax Administration Office of Audit Fiscal Year 2007
 Annual Audit Plan.
 The TE/GE Division was organized to serve customers exempt from paying income tax. During
 Fiscal Year 2006, the Internal Revenue Service (IRS) initiated plans to transfer the toll-free
 telephone operation for tax-exempt customers to the W&I Division at the beginning of Fiscal
 Year 2007. The purpose of the transfer was to enhance customer service by providing expanded
 hours of operation and incrementally increasing the number of calls answered.

 Impact on the Taxpayer
 Because the transfer of the toll-free telephone operation to the W&I Division did not involve a
 change to the toll-free telephone number or system, tax-exempt customers should receive similar
 levels of customer service to their telephone calls in the short term. The one change that affected
 customers involved some of the more complex tax-exempt questions. Instead of these calls
 being routed to tax-exempt specialists, questions were emailed to experienced TE/GE Division
 employees to respond within 5 business days. We identified significant long-term risks that
                          Improving the Toll-Free Telephone Agreement Would
                         Better Assure Tax-Exempt Customer Needs Will Be Met



could lead to a drop in overall customer service to tax-exempt customers if not addressed by the
TE/GE and W&I Divisions.

Synopsis
Because the TE/GE and W&I Divisions implemented processes for accomplishing the transfer of
the toll-free telephone operation to the W&I Division, tax-exempt customers should receive
similar levels of customer service to their telephone calls in the short term. Several of the new
processes were part of a Memorandum of Understanding (Memorandum) established by the two
organizations and provided continuity of the operation so the transfer was transparent for most
tax-exempt customers. However, the Memorandum needs to be strengthened to address conflicts
which exist between the Memorandum in its present form, the principles of the
IRS Restructuring and Reform Act of 1998,1 the IRS Organizational manual, and the
IRS mission.
For example, subject matter experts for tax-exempt customers are still managed by the
TE/GE Division, yet the Memorandum does not provide a significant role for the TE/GE
Division to identify service requirements or to maintain and update procedures and programs for
the W&I Division toll-free telephone operation. In addition, the W&I Division is not required to
obtain approval from the TE/GE Division to deviate from the Internal Revenue Manual
provisions outlined in the Customer Account Services Telephone Operations Manual (which
provides guidance on tax-exempt questions). We identified one deviation the
W&I Division did not inform the TE/GE Division about. Further, the TE/GE Division is not
required to review updates to training materials, which presents a risk that incomplete or
incorrect material could be provided to customer service representatives responding to
tax-exempt questions.
Addressing these risks will provide better assurance that the toll-free telephone operation for
tax-exempt customers will be able to achieve the strategic goal of improving taxpayer service.

Recommendations
We recommended the Commissioner, TE/GE Division, work with the W&I Division to
strengthen the existing Memorandum of Understanding. We also recommended the
Commissioner, TE/GE Division, ensure tax-exempt customers are timely notified of operational
changes associated with the W&I Division toll-free telephone call site.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             2
                     Improving the Toll-Free Telephone Agreement Would
                    Better Assure Tax-Exempt Customer Needs Will Be Met




Response
The IRS agreed with our recommendations and provided planned actions to address them. The
TE/GE and W&I Divisions will work together to modify and adopt an addendum to the
Memorandum of Understanding to address the recommendations. Management’s complete
response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                            3
                               Improving the Toll-Free Telephone Agreement Would
                              Better Assure Tax-Exempt Customer Needs Will Be Met




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Improving Agreements and Processes Will Provide Better Assurance
          That the Unique Needs of Tax-Exempt Customers Will Be Met .................Page 3
                    Recommendation 1: .................................................................. Page 9

                    Recommendation 2: .................................................................. Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 15
         Improving the Toll-Free Telephone Agreement Would
        Better Assure Tax-Exempt Customer Needs Will Be Met




                   Abbreviations

IRS          Internal Revenue Service
TE/GE        Tax Exempt and Government Entities
W&I          Wage and Investment
                          Improving the Toll-Free Telephone Agreement Would
                         Better Assure Tax-Exempt Customer Needs Will Be Met




                                            Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 required the
IRS Commissioner to develop and implement a plan to reorganize the IRS around organizational
units serving particular groups of taxpayers with similar needs. The Tax Exempt and
Government Entities (TE/GE) Division was organized to serve customers exempt from paying
income tax. The TE/GE Division Customer Account Services function assists tax-exempt
customers in two primary areas: ensuring quality service for returns processing activities
through oversight of the IRS Wage and Investment (W&I) Division2 and, prior to
October 1, 2006, providing toll-free telephone assistance for tax-exempt customers.3
When toll-free telephone assistance was managed by the
TE/GE Division, tax-exempt customers were generally provided
with accurate responses to their inquiries. However, tax-exempt        Customer demand for
                                                                     toll-free telephone service
customer demand for toll-free telephone service significantly        significantly exceeded the
exceeded the capacity of the toll-free telephone operation.          TE/GE Division’s resource
Access to toll-free telephone service was evaluated by                         capacity.
computing a Level of Service4 measure. Approximately
60 percent of calls from customers were answered in Fiscal
Years 2004 and 2005; the Level of Service fell to 57 percent for Fiscal Year 2006.
The TE/GE Division toll-free telephone call site maintained its own toll-free telephone number,
which was different from the telephone number used by other IRS business units. During Fiscal
Year 2006, the IRS initiated plans to transfer the toll-free telephone operation for tax-exempt
customers to the W&I Division at the beginning of Fiscal Year 2007. The purpose of the transfer
was to enhance customer service by providing expanded hours of operation and incrementally
increasing the number of calls answered to be more commensurate with the service provided to
W&I Division customers. The W&I Division plans to maintain the separate toll-free telephone
number for tax-exempt customers.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The W&I Division provides tax law and account-related assistance to individuals and businesses by telephone,
correspondence, and email in addition to processing their paper and electronic tax returns.
3
  During Fiscal Year 2004, the Pacific Consulting Group determined the TE/GE Division Customer Account
Services function should work on two primary areas: 1) reduce the amount of time it takes to complete a customer’s
call once the customer gets through to a TE/GE Division Customer Account Services function assistor; and
2) improve issue resolution.
4
  The Level of Service is a performance measure used to determine the percentage of callers who receive assistance.
This measure is determined by dividing the total telephone calls answered by assistors by the total telephone call
demand.
                                                                                                           Page 1
                      Improving the Toll-Free Telephone Agreement Would
                     Better Assure Tax-Exempt Customer Needs Will Be Met



On October 1, 2006, resources and responsibility for managing the TE/GE Division toll-free
telephone call site was transferred to the W&I Division. This change brought all IRS telephone
customer service operations for individuals, businesses, tax professionals, tax-exempt
organizations, employee plans, and government entities under the W&I Division. A
Memorandum of Understanding (Memorandum) between the TE/GE and W&I Divisions was
established to define roles and responsibilities for the two Divisions. The Memorandum
formally transferred ownership of the toll-free telephone operation, although the calls would
continue to be answered by former TE/GE Division assistors (who were transferred to the
W&I Division) providing the same high-quality assistance as that given before the transfer.
When management of the toll-free telephone operation was transferred, the TE/GE Division
believed it would continue to provide technical and training support and to track and report on
customer satisfaction, quality, and service measures for customer service provided to its
customers.
This review was performed at the TE/GE Division Customer Account Services function offices
and the W&I Division Customer Account Services Accounts Management call site in
Cincinnati, Ohio, and the W&I Division Customer Account Services Accounts Management
offices in Covington, Kentucky, during the period January through March 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                          Page 2
                          Improving the Toll-Free Telephone Agreement Would
                         Better Assure Tax-Exempt Customer Needs Will Be Met




                                      Results of Review

Improving Agreements and Processes Will Provide Better Assurance
That the Unique Needs of Tax-Exempt Customers Will Be Met
Because the transfer of the toll-free telephone operation to the W&I Division did not involve a
change to the toll-free telephone number or system and the TE/GE and W&I Divisions
implemented processes for accomplishing this transfer, tax-exempt customers should receive
similar levels of customer service to their telephone calls in the short term. Several of the new
processes were part of the Memorandum established by the two Divisions and provided for
continuity of the operation so the transfer was transparent for most tax-exempt customers.
Specifically, the Memorandum included the following:
    •   Conditions were established for transferring trained call site assistors and other resources
        from the TE/GE Division to the W&I Division.
    •   Provisions were established for technical experts5 within the TE/GE Division to annually
        review and concur with the Telephone Operations Manual6 used by W&I Division call
        site assistors.
    •   Concurrence from TE/GE Division technical experts is required for any changes to the
        W&I Division Customer Account Services function manuals that may affect service
        provided to tax-exempt customers.
    •   TE/GE Division technical experts are required to provide the W&I Division with
        information on new legislation, regulations, and other items that will affect the Telephone
        Operations Manual used as a guide for answering inquiries from TE/GE Division
        customers.
In the short term, these actions should mitigate many of the risks that are inherent with
transferring the management and control of the toll-free telephone call site operation to a division
that does not have the necessary technical expertise in the complex tax-exempt area. However,


5
  Technical experts refer to TE/GE Division employees who will be able to maintain current working-level
knowledge of legislative changes, regulations, new revenue procedures, tax return changes, and other issues
affecting tax-exempt customers. These subject-matter experts would be responsible for providing W&I Division
employees with information that will affect the Internal Revenue Manual or any other guidance for the toll-free
telephone operation in responding to tax-exempt questions.
6
  The Telephone Operations Manual is part of the Internal Revenue Manual; it provides guidance to customer
service representatives for responding to inquiries from tax-exempt customers.
                                                                                                           Page 3
                          Improving the Toll-Free Telephone Agreement Would
                         Better Assure Tax-Exempt Customer Needs Will Be Met



we identified significant long-term risks that could lead to a drop in overall customer service to
tax-exempt customers if they are not addressed.
Specifically, the TE/GE Division needs to ensure appropriate actions are taken to correct the
following conditions.
      •    The Memorandum does not define the TE/GE Division’s role for ensuring customers
           with tax-exempt questions are provided service when calling the W&I Division call
           site.
      •    The Memorandum does not require approval from the TE/GE Division to deviate from
           the Internal Revenue Manual sections pertaining to customers calling with tax-exempt
           questions. These instructions were previously known as the TE/GE Division Customer
           Account Services Operations Manual.
      •    Processes do not provide sufficient assurance that adequate resources are devoted to
           tax-exempt customer inquiries.
      •    Processes do not provide sufficient assurance that W&I Division customer service
           representatives are appropriately trained to respond to tax-exempt customer inquiries.
      •    The Memorandum does not provide that customer satisfaction surveys be performed
           solely for tax-exempt customers calling with tax-exempt questions.
      •    Processes do not provide sufficient assurance that tax-exempt customers are timely
           notified of operational changes associated with the toll-free telephone call site.
The IRS needs to improve the Memorandum and some of the key processes associated with
operating the toll-free telephone call site to address conflicts that exist among the Memorandum
in its present form, the principles of the IRS Restructuring and Reform Act of 1998,7 the
IRS Organizational manual, and the IRS mission. Addressing these risks will provide better
assurance that in the long term the toll-free telephone operation for tax-exempt customers will be
able to achieve the strategic goal of improving taxpayer service.

The Memorandum should define the TE/GE Division’s role for ensuring
customers with tax-exempt questions are provided with appropriate service
Although the Memorandum transfers ownership and responsibility for providing toll-free
telephone service to the W&I Division, it does not indicate that the TE/GE Division retains
responsibility for ensuring its customers’ needs are met or provide reasonable assurance the
TE/GE Division will be capable of assessing whether its customers’ needs are being met. We


7
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C.,31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                                                                             Page 4
                       Improving the Toll-Free Telephone Agreement Would
                      Better Assure Tax-Exempt Customer Needs Will Be Met



are concerned that, over time, the end-to-end responsibility for servicing tax-exempt customers
may be lost because of this change. The Senate Committee Report on the IRS Restructuring and
Reform Act of 1998 notes that, “a key reason for taxpayer frustration with the IRS [was] the lack
of appropriate attention to taxpayer needs.” The IRS’ reorganization was intended to give each
division end-to-end responsibility for servicing particular groups of customers and to enable
IRS personnel to understand the needs and problems affecting particular groups of customers.
Another longer term challenge to providing quality toll-free telephone service is that
technical experts for tax-exempt customers will be managed by the TE/GE Division, yet the
Memorandum does not provide a significant role for the TE/GE Division to identify service
requirements or to maintain and update procedures and programs.
The Office of Management and Budget defines management’s responsibility for internal control
in Federal Government agencies. Internal control includes (1) the plan of organization, methods,
and procedures adopted by management to meet its goals and (2) processes for planning,
organizing, directing, controlling, and reporting on agency operations. Further, management
must clearly define the areas of responsibility and authority.
It is important for the TE/GE Division to maintain responsibilities for tax-exempt customers that
extend beyond simply monitoring performance measures. For example, the Level of Service is
essentially just an indicator of how difficult it is for customers to access services provided by the
toll-free telephone operation. There are several actions that can be taken by call site managers
which affect the Level of Service measure. Some of the actions could result in an improved
Level of Service measure, but it may not necessarily reflect improved customer service to
tax-exempt customers, whose needs are significantly different from customers of other operating
divisions.
In comparison, the TE/GE and W&I Divisions entered into a Service Level Agreement for
processing information returns and other submissions made by tax-exempt customers. The
Agreement clearly identifies the W&I Division as a service provider and the TE/GE Division as
an operating division with service requirements. Further, the Agreement clearly states the
W&I Division is responsible for processing submissions, monitoring performance, managing
processing resources, and notifying the TE/GE Division of service lapses. The Agreement also
states the TE/GE Division is responsible for clearly identifying its service requirements,
maintaining and updating procedures and programs, and providing subject-matter expertise in
tax-exempt matters. The Memorandum for toll-free telephone inquiries does not provide that the
TE/GE Division retains these capabilities to ensure its tax-exempt customers are provided with
appropriate service.




                                                                                              Page 5
                      Improving the Toll-Free Telephone Agreement Would
                     Better Assure Tax-Exempt Customer Needs Will Be Met



The Memorandum should require approval from the TE/GE Division for the
W&I Division to deviate from guidelines for customers calling with tax-exempt
questions
The Memorandum does not require the W&I Division to obtain approval from the
TE/GE Division to deviate from Internal Revenue Manual provisions outlined in the Customer
Account Services Telephone Operations Manual, which provides guidance to customer service
representatives on appropriate responses to customers with tax-exempt questions.
We determined the W&I Division did not advise the TE/GE Division about one deviation it
made. The Customer Account Services Telephone Operations Manual required that an issue
code be entered to the management information system upon closing an incoming telephone
inquiry. The TE/GE Division Customer Account Service function used issue codes to identify
trends, training needs, and possible systemic problems. However, after transfer of the toll-free
telephone operation, the W&I Division concluded that the issue codes were not needed for the
tax-exempt toll-free telephone operation and discontinued the requirement without seeking
concurrence from the TE/GE Division. Requiring the W&I Division to obtain the
TE/GE Division’s concurrence before deviating from the Telephone Operations Manual should
provide the TE/GE Division with better assurance that customers are receiving the same type of
service from the W&I Division call site as they did before the transfer and that calls are
answered according to the guidelines.
In contrast to the Memorandum, the Service Level Agreement for processing TE/GE Division
customer return submissions clearly establishes that authority to deviate from current Internal
Revenue Manual guidelines was not extended. This provides TE/GE Division management with
better assurance that their customers’ return submissions are processed in a manner consistent
with expectations. If the toll-free telephone operation Memorandum had this authority, the
W&I Division would have been unable to stop inputting issue codes without first discussing the
change with the TE/GE Division.

The Memorandum does not provide assurance that sufficient resources are
devoted to tax-exempt customer inquiries or that customer service
representatives are appropriately trained to respond to the inquiries
The Memorandum does not require the W&I Division to provide information to TE/GE Division
managers on resources used to answer tax-exempt telephone inquiries or whether resources
devoted to those inquiries are appropriately trained. As a result, the TE/GE Division does not
have sufficient assurance that the unique needs of tax-exempt customers will be met.
     •   In December 2006, the W&I Division notified the TE/GE Division that 9 additional
         customer service representatives had been hired that month for the Cincinnati Call Site
         to respond to technical tax law and account issues and 17 customer service
         representatives had been hired that month for the Ogden Call Site in Ogden, Utah, to

                                                                                          Page 6
                         Improving the Toll-Free Telephone Agreement Would
                        Better Assure Tax-Exempt Customer Needs Will Be Met



          respond to exempt organization notice inquiries beginning in January 2007. The
          notification indicated the hiring was complete and training was in progress. However,
          the TE/GE Division did not timely receive information on when the new employees had
          successfully completed the training and had begun taking tax-exempt customer calls
          because the Memorandum did not require that notification of these actions be given to
          the TE/GE Division. This information would allow TE/GE Division management to be
          alert for any problems associated with the newly trained representatives and to assess
          whether its customers receive appropriate toll-free telephone service. In addition, it
          would enable TE/GE Division management to track and report on any resulting
          changes to quality measures during Business Performance Reviews.8
      •   Changes to the Internal Revenue Manual are forwarded from the W&I Division to the
          TE/GE Division for review and concurrence, but the TE/GE Division is not required to
          review updates to training materials. In the near term, the risk of inadequate training is
          low because the training materials now being used for new employees were developed
          by the TE/GE Division; however, in the long term, there are plans to revise the training
          materials to ensure consistency with processes used by other call sites managed by the
          W&I Division. This presents a risk that incomplete and/or incorrect material could be
          provided to customer service representatives responding to tax-exempt customers’
          questions. The W&I Division plans to mitigate some of this risk by using
          W&I Division call site employees who were formerly TE/GE Division call site
          employees to revise materials for the training courses. However, over time, these
          former TE/GE Division employees may not be able to maintain current knowledge of
          the tax-exempt area. If this occurs and TE/GE Division technical experts do not review
          training materials developed by the W&I Division, we believe the IRS will have
          insufficient assurance that the full scope of information needed to respond to technical
          inquiries is included in future revisions to training materials provided to customer
          service representatives.

The Memorandum should require that customer satisfaction surveys be
performed solely for tax-exempt customers
The Memorandum does not provide a guarantee that customer satisfaction surveys will be
conducted for tax-exempt customers. It currently requires the W&I Division to administer the
TE/GE Division toll-free Customer Satisfaction Survey for telephone calls received during
October 1, 2006, through December 31, 2007, with options to have the Pacific Consulting Group
perform surveys for Calendar Years 2008 and 2009. These option years would be exercisable at
the Federal Government’s discretion only, with no guarantee they will actually be extended.


8
 TE/GE Division Business Performance Reviews are periodic discussions with the IRS Commissioner to review the
Division’s strategic and operational issues and organizational performance.
                                                                                                     Page 7
                         Improving the Toll-Free Telephone Agreement Would
                        Better Assure Tax-Exempt Customer Needs Will Be Met



Customer satisfaction surveys have been regularly conducted by the TE/GE Division and the
Pacific Consulting Group as part of an agency-wide initiative to monitor and improve taxpayer
satisfaction with services provided by the IRS. The objectives of the surveys are to identify
actions that can be performed by call site staff and managers to improve customer service, to
track progress for improving customer satisfaction with the services provided by the call site, and
to learn and understand taxpayers’ experiences with resolving issues through use of the
IRS Internet web site (IRS.gov).
Similar toll-free telephone service customer satisfaction surveys are conducted by the W&I and
the Small Business/Self-Employed Divisions. On October 1, 2004, these Divisions merged their
toll-free telephone call site operations and combined the two customer satisfaction surveys. If
IRS management determines in the future that tax-exempt customers should also be combined
with the other survey, there is a risk that gaps in service for this unique customer segment will go
unidentified. A separate toll-free telephone customer satisfaction survey is essential for the
TE/GE Division Customer Account Services function to assess whether the call site is meeting
the needs of tax-exempt customers.

Processes should be implemented to ensure that tax-exempt customers are
timely notified of operational changes associated with the toll-free telephone
call site
Existing processes do not ensure tax-exempt customers will be timely notified of changes
associated with the toll-free telephone call site. One change made since the transfer of toll-free
telephone services to the W&I Division that affected customers involved some of the more
complex tax-exempt questions. Instead of calls being routed to tax-exempt specialists, questions
were emailed to experienced TE/GE Division employees to respond within 5 business days.
Prior to the transfer of the TE/GE Division Customer Account Service function’s toll-free
telephone operation, calls from customers with complex exempt organization or employee plan
questions could be transferred to a TE/GE Division revenue agent9 who possessed expertise to
either answer the question or research the issue for later response. However, the W&I Division
does not have the necessary technical expertise to handle some of the complex tax-exempt
questions, so these questions were entered into an internal email system and sent to experienced
TE/GE Division employees to respond within 5 business days. Customers were not advised
beforehand of the potential delay in service. This represents a significant change in service to
tax-exempt customers. TE/GE Division management considered using the Internet and
newsletters to announce this operational change, but these announcements were not made. Some
customers have noticed the change in service. We believe the TE/GE Division should have used
its educational outreach programs to communicate the change to customers who may have been


9
 Revenue Agents make determinations and conduct examinations to ensure compliance of deferred compensation
pension plans and tax exempt organizations with Federal tax laws.
                                                                                                     Page 8
                       Improving the Toll-Free Telephone Agreement Would
                      Better Assure Tax-Exempt Customer Needs Will Be Met



affected. During the first quarter of Fiscal Year 2007, the TE/GE Division Customer Account
Services revenue agents received 2,079 employee plan and 1,564 exempt organization questions.
We believe the change in service for complex questions from a “real time” toll-free telephone
service to a slower, internal email system potentially increased the burden to at least a portion of
these 3,643 customers. In addition, the replies may not answer all the customers’ questions
because there is no opportunity to obtain feedback or clarification prior to researching the
responses to ensure they will actually answer the questions.

Recommendations
Recommendation 1: The Commissioner, TE/GE Division, should work with the
W&I Division to modify the existing Memorandum of Understanding to require:
   •   The role of technical experts in the TE/GE Division be strengthened to include
       identification of service requirements and more involvement/approval in the maintenance
       and updating of procedures and training programs.
   •   Prior approval from the TE/GE Division when the W&I Division identifies a need to
       deviate from the Telephone Operations Manual.
   •   The W&I Division to provide TE/GE Division managers information regarding the status
       of training programs and the number of W&I Division customer service representatives
       to be used to answer tax-exempt customers’ inquiries.
   •   The continuation of a separate TE/GE Division toll-free telephone Customer Satisfaction
       Survey.
   •   The W&I Division to timely notify the TE/GE Division of operational changes to the
       toll-free telephone call site that affect tax-exempt customers.
       Management’s Response: IRS management agreed with the recommendation. The
       TE/GE and W&I Divisions will adopt an addendum to the original Memorandum of
       Understanding to address the recommendations. Also, the TE/GE Division will stay in
       close contact with the W&I Division on the level and quality of service provided to
       TE/GE Division customers but will not focus exclusively upon or attempt to prescribe the
       number of assistors that should be on duty from day to day.




                                                                                             Page 9
                     Improving the Toll-Free Telephone Agreement Would
                    Better Assure Tax-Exempt Customer Needs Will Be Met



Recommendation 2: The Commissioner, TE/GE Division, should implement processes to
ensure tax-exempt customers will be timely notified in the future of operational changes
associated with the W&I Division toll-free telephone call site that will affect tax-exempt
customers.
       Management’s Response: IRS management agreed with the recommendation. The
       TE/GE and W&I Divisions will modify the Memorandum of Understanding to provide
       that the W&I Division will timely notify the TE/GE Division of changes to the call-site
       operations that will affect TE/GE Division customers. The TE/GE Division is currently
       prepared to use its embedded Communication, Education, and Outreach functions to
       ensure a wide distribution of information and updates to affected customers.




                                                                                       Page 10
                          Improving the Toll-Free Telephone Agreement Would
                         Better Assure Tax-Exempt Customer Needs Will Be Met



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether processes will ensure
TE/GE Division customers continue to receive timely and accurate information through the
toll-free telephone call site operated by the W&I Division. To accomplish our objective, we:
I.      Interviewed TE/GE and W&I Division personnel and reviewed the Memorandum of
        Understanding (Memorandum) between these Divisions, as well as other applicable
        documents, to determine if the processes developed and implemented ensured the
        TE/GE Division Customer Account Services function is provided information that
        enables it to monitor (1) the Level of Service1 and the quality of responses provided to
        TE/GE Division customers; (2) any trends identified by the W&I Division; and
        (3) whether it is advised of and provided with information that enables identification of
        actions taken by the W&I Division to improve the Level of Service and/or the quality of
        responses provided to TE/GE Division customers.
II.     Interviewed TE/GE and W&I Division personnel and reviewed TE/GE Division toll-free
        telephone operation customer satisfaction surveys to determine if the processes developed
        and implemented ensured the TE/GE Division Customer Account Services function is
        provided information that allows it to monitor (1) trends in TE/GE Division customer
        satisfaction and (2) actions taken by the W&I Division to improve the customers’
        satisfaction with the toll-free telephone call site.
III.    Interviewed TE/GE Division Customer Account Services function personnel and
        reviewed the Memorandum between the TE/GE and W&I Divisions, as well as other
        applicable documents, to determine if (1) the processes developed ensure W&I Division
        personnel possess the specialized skills necessary to respond to TE/GE Division
        customers’ telephone inquiries, and (2) there are processes in place to ensure tax-exempt
        customers are timely notified of operational changes associated with the W&I Division
        toll-free telephone call site.




1
 The Level of Service is a performance measure used to determine the percentage of callers who receive assistance.
This measure is determined by dividing the total telephone calls answered by assistors by the total telephone call
demand.
                                                                                                         Page 11
                     Improving the Toll-Free Telephone Agreement Would
                    Better Assure Tax-Exempt Customer Needs Will Be Met



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Troy Paterson, Director
James Westcott, Audit Manager
Gregory Holdeman, Lead Auditor
Andrew Burns, Senior Auditor
Steve Myers, Senior Auditor
Yolanda Brown, Auditor
Carol Rowland, Auditor




                                                                                   Page 12
                     Improving the Toll-Free Telephone Agreement Would
                    Better Assure Tax-Exempt Customer Needs Will Be Met



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Customer Account Services, Tax Exempt and Government Entities Division
SE:T:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Director, Communications and Liaison, Tax Exempt and Government Entities
   Division SE:T:CL
   Director, Communications and Liaison, Wage and Investment Division SE:W:C




                                                                                   Page 13
                         Improving the Toll-Free Telephone Agreement Would
                        Better Assure Tax-Exempt Customer Needs Will Be Met



                                                                                          Appendix IV

                                    Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 3,643 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
During the first quarter of Fiscal Year 2007, the TE/GE Division Customer Account Services
function revenue agents1 received 2,079 employee plan questions and 1,564 exempt organization
questions referred from the W&I Division toll-free telephone operation through the internal
email system. These customers received responses to their questions in an average of fewer than
5 business days. However, before the transfer of the toll-free telephone operation to the
W&I Division, some customers would speak to TE/GE Division revenue agents during their
initial calls and have their questions answered during those calls. As a result of the transfer,
customers may not receive replies for up to 5 business days because the questions are routed
internally to experienced TE/GE Division revenue agents to respond to the customers within
5 business days. Because the TE/GE Division did not communicate this response-time change to
its customers, we believe the change potentially increased the burden to some of these
3,643 callers. In addition, a written reply may not answer all of a customer’s questions because
there is no opportunity to obtain immediate feedback or clarification that the response provided
to the customer actually answered the questions.




1
 Revenue agents make determinations and conduct examinations to ensure compliance of deferred compensation
pension plans and tax exempt organizations with Federal tax laws.
                                                                                                    Page 14
       Improving the Toll-Free Telephone Agreement Would
      Better Assure Tax-Exempt Customer Needs Will Be Met



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 15
 Improving the Toll-Free Telephone Agreement Would
Better Assure Tax-Exempt Customer Needs Will Be Met




                                                 Page 16
 Improving the Toll-Free Telephone Agreement Would
Better Assure Tax-Exempt Customer Needs Will Be Met




                                                 Page 17
 Improving the Toll-Free Telephone Agreement Would
Better Assure Tax-Exempt Customer Needs Will Be Met




                                                 Page 18
